<html>
<title> - CHINA'S RAPID POLITICAL AND ECONOMIC ADVANCES IN CENTRAL ASIA AND RUSSIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






   CHINA'S RAPID POLITICAL AND ECONOMIC ADVANCES IN CENTRAL ASIA AND 
                                 RUSSIA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

                           Serial No. 113-22

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-462 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Rensselaer Lee, Ph.D., senior fellow, Foreign Policy Research 
  Institute......................................................     4
Mr. John Tkacik, Jr., director and senior fellow, Future Asia 
  Project, International Assessment and Strategy Center..........    12
Dmitry Shlapentokh, Ph.D., associate professor, Indiana 
  University South Bend..........................................    22
Stephen J. Blank, Ph.D., research professor of national security 
  affairs, U.S. Army War College.................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Rensselaer Lee, Ph.D.: Prepared statement........................     7
Mr. John Tkacik, Jr.: Prepared statement.........................    15
Dmitry Shlapentokh, Ph.D.: Prepared statement....................    24
Stephen J. Blank, Ph.D.: Prepared statement......................    31

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Tom Marino, a Representative in Congress from the 
  Commonwealth of Pennsylvania: Material submitted for the record    60

 
   CHINA'S RAPID POLITICAL AND ECONOMIC ADVANCES IN CENTRAL ASIA AND 
                                 RUSSIA

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. The committee will come to order.
    Writing 10 years ago, the head of research at a Moscow bank 
suggested that China should just buy the Russian Far East 
because ``if the Earth's territory were divvied up according to 
demographic need and by potential for economic development, 
China would play Pac-Man at the expense of the Russian Far 
East.'' This has not, however, been the view of either the 
Russian Government or the Russian people. China, though, finds 
the prospect appealing and much of what was on President Xi's 
agenda when he met with President Putin last month involved 
using China's new wealth to take control of the resource rich 
Russian eastern territories in Eurasia.
    Beijing's economic, political and demographic integration 
with foreign lands follows a specific pattern. First, Chinese 
workers as well as managers, technicians and merchants 
accompany Chinese capital. Second, investments expand to 
control the entire supply chain for both exports and imports. 
Control of agricultural lands, raw materials, energy resources, 
local manufacturing, and retail business freeze out local firms 
and workers. Third, the areas of investment are directed by the 
Beijing regime through state-owned banks, sovereign wealth 
funds and state enterprises. They become an extension of the 
Communist Party and China itself. And finally, control of 
large, strategic segments of overseas economies gives Beijing 
dominate political influence over local governments. Corruption 
makes sovereignty a paper illusion, and if demographic shifts 
like those which could take place along China's border follow, 
the borders themselves can change.
    While this Chinese model has been most evident and 
successful in Africa, where local governments are weak, it can 
be seen elsewhere as well. The advantages it confers on Beijing 
make it the preferred way of doing business. It is not in the 
national security interests of the United States for this to 
happen. For China to gain direct control of the resources of 
Russian Far East would tip the balance of power not only in 
Asia but worldwide. America and its allies need to strengthen 
their economic relationship with Russia and provide a viable 
alternative to China for the development of the Far East. The 
Russian people and their leaders see the danger of falling into 
a neocolonial dependency on China, but if they cannot find 
other business partners, they will be drawn into the Chinese 
orbit because Beijing has the money, the power and the will to 
entrap them.
    Finding common ground with Russia in the Far East could 
also lead to a wider strategic rapprochement. During the Cold 
War I was an implacable enemy of the Soviet Union; but I was 
never an enemy of the Russian people. The Cold War is long 
over, and we won it. Moscow is no longer the home of a 
Communist dictatorship. But there is still a Communist 
dictatorship in China. Curtailing the growth of its power 
should now be our prime concern; and we should work with other 
countries that come to see the same danger.
    I would hope our panel today can provide some suggestions 
how we can add Russia to our alignment, or at least keep it out 
of China's clutches.
    With that said, I know the ranking member Keating has an 
opening statement of his own, and you may proceed.
    Mr. Keating. Thank you, Mr. Chairman. And thank you for 
holding today's timely hearing. I would like to note I not only 
speak for myself, but for the other members here, that is we 
are here today, our hearts and prayers are with the Boston 
Marathon victims and families today. And this meeting, 
attendant to that that I apologize. I'll be leaving this 
hearing.
    Both China and Russia have a long history within Central 
Asia. This history can both be viewed through at times, an 
adversarial relationship, more recently, through the framework 
of an opportune partnership. In fact, the seeming success of 
the recent China-Russia Summit highlights the dynamic nature of 
the modern Sino-Russian relationship, which has both domestic 
and international implications for both countries.
    On the international stage, Beijing and Moscow have been 
actively leveraging their partnership to expand their influence 
over global affairs, particularly on the United Nations 
Security Council, where both Nations vetoed resolutions 
condemning the ongoing humanitarian crisis in Syria. Further, 
the two countries have been working to coordinate their efforts 
on the establishment of a new international lending institution 
to serve as an alternative to the International Monetary Fund 
and the World Bank. At home, the Chinese benefit from the 
domestic perception that they are recognized and respected by a 
major player like Russia while also expanding their outside 
energy sources.
    In turn, the Chinese selected Russia for Xi Jinping's first 
visit abroad to grant credibility to an increasingly 
belligerent Russian leadership whose relationship with the West 
has deteriorated since the re-election of President Putin. At 
its foundation, energy and security agreements have drawn these 
two regional powers into what seems to be a relatively positive 
working relationship. In this way, their role in Central Asia 
is not only based on proximity, but on a natural need to ensure 
the stability of their neighborhood, given that the Central 
Asian States only established their sovereignty after the 
dissolution of the Soviet Union. For this reason, despite 
differences between Russia, China and the United States, it is 
in the best interest of all three countries to work together.
    Although both the Chinese and Russians have strong 
historical, security and trade links to Central Asia, the 
United States can also provide a stabilizing influence through 
increased trade and democracy-building initiatives to ensure 
the durability of future of those investments and bringing the 
influence to the rule of law. Kicking out foreign NGOs that 
work on rule of law and democratization has been an unfortunate 
trend in the region and does not necessarily bode well for U.S. 
business interests. Without the basic foundations of government 
being taught and exercised, the region will be prone to greater 
instability and chaos. This being said, Russia and China must 
display their own willingness to provide more freedoms, 
services and information to their people.
    Finally, this subcommittee has been examining the potential 
for and the uncertainty surrounding the rise of extremism in 
Central Asia following the drawdown of troops in Afghanistan. 
The U.S., China and Russia have been working together on 
security matters since 9/11, and I believe that this 
cooperation should be maintained in a manner that is consistent 
with our own values in the United States. This includes 
cooperation on other transnational challenges such as 
narcotics, HIV prevention, and trafficking in persons.
    In conclusion, there is no doubt that this is a dynamic 
region that holds great potential, but this potential can only 
be harnessed through a willingness to work with the United 
States and moreover, the West.
    I look forward to circling back with you, Mr. Chairman, on 
this subject and in the meantime, will turn to Congressman 
Lowenthal who has graciously agreed to act as the ranking 
member for the remainder of the hearing. I want to thank you, 
Mr. Chairman, and thank you, Mr. Lowenthal.
    Mr. Rohrabacher. We appreciate your thoughtful statement 
and any questions you might have to submit to our witnesses you 
can do so within 10 days. And we will transfer them on and they 
will be made a part of this record.
    Mr. Keating. Thank you, sir.
    Mr. Rohrabacher. Mr. Cook, do you have any opening 
statement? Mr. Lowenthal? All right. I will introduce all of 
the witnesses and then how we will proceed, each witness will 
give an opening statement hopefully around 5 minutes, although 
the rest of your opening statement will be made part of the 
record and then we will go to a question and answer session.
    Our first witness is John Tkacik, senior fellow and 
director of Future Asia Project at the International Assessment 
and Strategy Center. He spent 3 or 4 years in the United States 
State Department as a Foreign Service Officer with almost 20 
years of that working in China, Taiwan, or Hong Kong. Before 
assuming his current position, he was a research fellow for 
China, Taiwan, and Mongolian Policy at the Heritage Foundation 
and holds a master's degree from Harvard University's Kennedy 
School of Government.
    Next, we have Dr. Rensselaer Lee. He's a research fellow at 
the Foreign Policy Research Institute and president of the 
Global Advisory Services in McLean, Virginia. Dr. Lee has 
performed overseas contract assignments for the State 
Department, the Department of Energy as well, the World Bank, 
the White House Office of National Drug Control Policy and 
other agencies. He has worked as an analyst for the 
Congressional Research Service and he is author, among other 
things, of ``Smuggling Armageddon, the Nuclear Black Market in 
the Former Soviet Union and Europe,'' and he holds a Ph.D. from 
Stanford University.
    Next we have Dmitry and I'm going to get this one, too, 
Shlapentokh, is that right? Okay, got it. He is an associate 
professor of history at Indiana University at South Bend. He 
holds master's degrees from Moscow State University and 
Michigan State University and received his Ph.D. from the 
University of Chicago. He was born in the USSR which no longer 
exists and emigrated to the United States in 1979. He has 
written monographs for the U.S. Army's Strategic Study Center 
and his new book, ``Global Russia, Eurasianism, Putin and the 
New Right,'' will be published later this year.
    Finally, we have Dr. Stephen Blank. He's a research 
professor of national security affairs at the U.S. Army War 
College where he also works with the Strategic Studies 
Institute. He has written on Russia's prospects in Asia as well 
as on other aspects of Russian policy. Dr. Blank holds a B.A. 
in history from the University of Pennsylvania, an M.A. and a 
Ph.D. in history from the University of Chicago.
    So with that said, we will start off with Dr. Lee and work 
our way this way and why don't you start. And then as I said, 
if the witnesses could keep their remarks to about 5 minutes 
and put the rest in the record, it will give us more of a 
chance to have a dialogue. And let me just say, when I say 
dialogue, if you want to ask questions of other members of the 
panel, we are going to encourage that type of interaction.
    So with that said, Dr. Lee, you may proceed.

  STATEMENT OF RENSSELAER LEE, PH.D., SENIOR FELLOW, FOREIGN 
                   POLICY RESEARCH INSTITUTE

    Mr. Lee. I think my remarks follow very closely the 
sentiments you expressed in your opening statement.
    Mr. Rohrabacher. Let's just note that when you're speaking 
with the microphone on, we are using energy. So all of a sudden 
we are using electricity, not using oil or natural gas.
    Mr. Lee. Let me start with a few introductory remarks about 
the Russian Far East and where it figures in this dialogue. The 
Russian Far East is a land of contradictions, rich in resources 
and economic potential. It's also seriously under developed and 
demographically challenged. It makes up 36 percent of Russia's 
national territory, equivalent to about two-thirds the size of 
the United States but it only has 4 to 5 percent of Russia's 
total population. It accounts for just 5 to 6 percent of its 
national GDP. It's also a very vulnerable territory 
geographically. And you must consider that Vladivostok is five 
times closer to Beijing and almost six times closer to Tokyo 
than it is Moscow. And for these various reasons the Far East 
has traditionally been difficult to administer from Moscow, a 
pain in the neck to administer from Moscow as a matter of fact, 
and a perennial opportunity for Russia's Asian neighbors.
    Now to go back in time a little bit, Japan was the main 
threat to Russian sovereignty of the Far East, most 
conspicuously at the time of the Russian civil war when 
Imperial Japanese troops occupied parts of the region. Today, 
the main perceived threat, not a specifically military threat, 
but a much more subtle threat, comes from an increasingly 
powerful and regionally assertive China. China has made 
important economic and demographic inroads into the Russian Far 
East, as it has elsewhere along its long, Asian periphery.
    Among other things, China wants to secure a land accessible 
base of raw materials as a hedge against a military conflict 
that could severe China's maritime lines of communication. What 
else China wants is a matter of speculation and controversy. 
But a sphere of influence, a sphere of Chinese influence in the 
Russian Far East if this is, in fact, in China's sights, could 
certainly compromise Russia's territorial sovereignty in an 
economic sense and perhaps politically as well.
    Now political factors such as Moscow's strategic 
partnership with Beijing have contributed to China's evolving 
special relationship with Russia's Far East. The relationship 
also reflects factors on the ground such as the country's long 
3600 kilometer common border and historical associations of the 
peoples and China's dynamically growing economy.
    China dominates trade with Russia's border provinces 
supplying vital food stuffs and consumer goods to their 
populations. Migrant Chinese labor provides essential services 
in areas such as construction, agriculture, trade, forestry, 
and mining. The valuable energy and raw material endowments of 
Siberia and the Far East are increasingly being programmed to 
serve China's industrial requirements, especially in China's 
northeast, that is Manchuria.
    Now as economic integration continues apace, the Russian 
Far East could become less a part of Russia's periphery and 
more a part of Asia's periphery or in the words of some Russian 
commentators, ``a resource appendage of North East China.''
    I submit that this trend could have broader strategic 
implications. Even partial or indirect Chinese control over 
that vital region could increase China's overall geopolitical 
weight and even reshape the regional balance of power in North 
East Asia to China's advantage.
    This won't happen overnight. And China isn't the only 
foreign power that has interests in the Russian Far East. And 
China's economic penetration is more advanced in the RFE 
provinces that adjoin the Sino-Russian border than in the 
provinces that are farther away. But given the regional 
dynamics of China's rise, its relentless quest for natural 
resources and uncertainty about its future ambitions, there is 
certainly no cause for complacency.
    America and its Pacific allies need to be more engaged and 
proactive in Russia's Far East economically, politically, and 
otherwise. This is not for outright containment of China which 
would be impractical in any case and risky. But it just makes 
good sense as a balancing strategy. Russia needs large-scale 
financing and technical assistance to maximize the economic 
potential of Siberia and the Far East. And Russia's democratic 
partners should be prepared to assume a role in this 
transformation.
    Right now, America doesn't have much of a presence in the 
region. Our trade with the Russian Far East was just 2.2 
percent of its total external trade in 2011. U.S. investment 
there has declined to near zero in recent years. U.S. 
development assistance for Russia's regions is less than what 
it was in the 1990s. U.S. policy makers don't seem to consider 
Russia as a serious Pacific partner in economic and security 
terms. In fact, our overall relationship with Russia is adrift 
right now. And maybe partnering with Russia and developing its 
remote Far Eastern territory would be a way to put the 
relationship back on track and reinforce America's Pacific 
security posture at the same time. Thank you.
    [The prepared statement of Mr. Lee follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much for those thoughtful 
remarks and you've made some very significant points that we 
will come back to during the question and answer and dialogue 
part of this. I just note, I would have to say that just for 
the record, Russia needs to wake up. They need to wake up. Who 
is really and what is really the greatest threat to the 
security and the economic well-being of their own people? For 
some reason, they have been treating the United States as if we 
fit into their hostile category and enemy category and that the 
Chinese who are really their greatest threat to their security 
and their prosperity are in some way their friends. And I'm 
very anxious to hear about the opinion of the other witnesses 
as well on that. But thank you very much, Dr. Lee, for your 
testimony.
    Now let me get this, Tkacik.
    Mr. Tkacik. Tkacik.
    Mr. Rohrabacher. I'm sorry, pardon me.
    Mr. Tkacik. The first K is silent.
    Mr. Rohrabacher. You know, I'll tell you, with a name like 
Rohrabacher, I actually can get other people's name wrong.
    You may proceed, Doctor.

STATEMENT OF MR. JOHN TKACIK, JR., DIRECTOR AND SENIOR FELLOW, 
  FUTURE ASIA PROJECT, INTERNATIONAL ASSESSMENT AND STRATEGY 
                             CENTER

    Mr. Tkacik. Thank you, Mr. Chairman, distinguished members. 
I thank you for giving me this opportunity to appear today. 
Chinese's rapid rise as Eurasia's preeminent power is of the 
greatest strategic importance to the United States. And I say 
this because as one top America specialist in Beijing says, 
``In the world today, virtually all of America's adversaries 
are China's friends.'' When you think about that, indeed, that 
is the case.
    Future Asia will not look like today's Asia. Eurasia in 10 
years in 2023 will be a Chinese dominion and China is now being 
helped along by a strategic alignment with the Russian 
Federation. Why does Russia side with China in a relationship 
that makes little geopolitical sense in the year 2013? Might it 
be a prudent strategy for the United States to tip the scales 
in the Russia-China relationship once again, as we did 44 years 
ago to prevent the emergence of a new hegemon in Eurasia.
    Now remember in 1969, 44 years ago, Russia and China were 
the bitterest enemies on earth. Now I don't have much of a 
sense of humor and neither did Soviet Premier Alexei Kosygin, 
but Chairman Mao apparently had a sense of humor, so let me 
tell you a humorous anecdote about Russia, China, and nuclear 
war. Russia almost launched a nuclear strike on China in 1969 
after a summer of unrelenting Chinese provocations. And on 
September 11, 1969, following the funeral of North Vietnamese 
leader Ho Chi Minh, Soviet Premier Alexi Kosygin, seething 
about China's attacks, suddenly diverted his plane from Hanoi 
to Peking's capital airport where he was met by Mao Zedong 
himself. Kosygin warned Mao to his face that the USSR's 
patience was at an end and he alluded to a nuclear strike. Mao 
Zedong replied to Kosygin and I quote, ``I have always said 
that the struggle between China and the Soviet Union will last 
for 10,000 years. But on the merit of your coming to see me in 
person, Premier Kosygin, I will cut that down to 9,000 years.''
    Kosygin was not amused. Five days later, Moscow's top 
journalist in Europe wrote an authoritative commentary 
predicting a Soviet nuclear strike on China and alluding to the 
Soviet invasion of Czechoslovakia the year before, he reminded 
the world that ``the Soviet Union adheres to the doctrine that 
socialist countries have the right to interfere in other's 
affairs in the interest of socialism.'' The Soviets had already 
approached the Nixon administration secretly about just such an 
attack. Nixon's reaction was explained in Kissinger's memoirs 
and this is Nixon's reaction:

        ``A Soviet attack on China could not be ignored by us. 
        It would upset the global balance of power. It would 
        create around the world an impression of approaching 
        Soviet dominance. Soviets may be using us to generate 
        an impression in China and in the world that we are 
        being consulted in secret and that we would look with 
        equanimity on Soviet military actions.''

    It was then a tenet of America's 20th century foreign 
policy that no power should achieve hegemony in Eurasia. And 
for 20 years after Nixon's visit in China in 1972, U.S. 
strategy successfully balanced Soviet dominance in Eurasia by a 
counter alignment with Communist China. Since 1972, however, it 
has been the grave misfortune of the United States that neither 
its political leaders nor its professional diplomats 
appreciated the substance of that strategy. The Soviet Union 
abruptly gone and China not yet then coalesced into an economic 
super power that was more politically repressive than the 
Soviets were in the years before its collapse.
    China did not have to struggle for Mao's 9,000 years for 
its victory over the Soviet Union. In the two decades since the 
Soviet Union's collapse, since the collapse of China's 
democracy movement in Tiananmen Square, the Chinese Communist 
Party has implemented a single-minded strategy by any means 
necessary to reincarnate the communist state in China's ancient 
dominance of Eurasia.
    Today, the United States confronts Eurasia's new hegemon. 
Island Asia, Japan, Taiwan, the Philippines, most of Southeast 
Asia and most importantly Vietnam and Indonesia and India now 
look to the United States' pivot to the Pacific to organize a 
new Asia Pacific order to balance China. But for Russia, the 
key factor is--but for us, the key factor is Russia in this 
equation. India still relies on Russia for weapons systems to 
deter China. Central Asian Mongolia hope the Russian influence 
can balance China's tightening grip on their economies and 
resources. They hope that America can mitigate both Russian and 
Chinese pressures. And even our old enemy, Vietnam, was 
heartened last month by renewed Russian interest in a maritime 
presence in the South China Sea.
    The new Russian state, its own legitimacy in tatters, seeks 
to legitimize its oligarchy by rebuilding influence over its 
lost Eurasian empire. It rationalizes political repression at 
home by rebuilding its Eurasian military power and it enhances 
its global prestige by leveraging its resource exports, oil, 
natural gas, metals, minerals, lumber and energy for political 
acceptance among the democracies. And I have an lengthy 
analysis of Russia's relationship to China in my written 
submission and I think my colleagues here beside me will 
already address the details in their own presentation.
    But let me conclude with the observation that Russia's 
relationship with China is not one of unalloyed affection. Just 
in the past few weeks we've seen tension between Russia and 
China on a matter of vital importance to Moscow, the gas 
pipeline in the Far East. For several years, we've seen the 
Russians insulate their border with Manchuria keeping out 
Chinese investment, controlling as they can Chinese immigration 
and legislating against Chinese domination of the small retail 
industry throughout Russia. I think we've seen a renewed 
Russian naval interest in the South China Sea and in the 
Pacific seemingly to show China and India, not just America, 
that Russia is still a global player. Russia also faces vast 
demographic, resource and environmental challenges from a self-
centered China. But Russia has yet to recover from its collapse 
of 1992. It must rebuild its own agriculture, its own 
industrial, scientific and resources infrastructure. It must 
rebuild its atrophying population and it must rebuilt its 
defenses before it can afford to challenge China's hegemony in 
Eurasia.
    And Moscow's leadership must rebuild its own legitimacy on 
the foundation of popular support among Russia's jaded and 
disillusioned citizens, so clearly that will have to wait for a 
new core leadership. Until then, Russia will try to accommodate 
China without jeopardizing its own future and until then, the 
United States must be hyper vigilant of the balance of power in 
Eurasia. Russia is now entering a period of instability that 
America has insufficient resources to moderate. As the new 
Chinese super power demonstrates, the United States has few 
permanent friends or enemies in Eurasia, but it does have 
permanent interests in preventing any one power from dominating 
the land mass. And we must, at all costs, avoid the appearance 
of collusion with China in the Asia Pacific as we do that. 
Thank you very much.
    [The prepared statement of Mr. Tkacik follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much and next we have Dr. 
Shlapentokh.
    You may proceed, Doctor.

 STATEMENT OF DMITRY SHLAPENTOKH, PH.D., ASSOCIATE PROFESSOR, 
                 INDIANA UNIVERSITY SOUTH BEND

    Mr. Shlapentokh. Thank you very much for giving me the 
opportunity to discuss these matters. My point is that--good.
    Mr. Rohrabacher. And we just had a hearing on cyber-
attacks.
    Mr. Shlapentokh. That's right, that's right, that's right. 
Vigilance, vigilance, vigilance.
    So the point of my presentation given the Russian 
dimensions of the relationship with China and my point is that 
Far East could well be a test for China because of the invasion 
of horde of Chinese or military stuff, but because as threats 
proceed, the Russians themselves from Far East could choose 
China, geopolitical domination over Moscow.
    The reason for this is as following: The Far East prospered 
during the Soviet era mostly because of heavy investment from 
the center. Now all of this is gone. Moreover, most of their 
resources exploited by the Moscow-centered companies go back to 
Moscow, the money goes to Moscow, nothing left for the Far 
East.
    In addition, the Moscow prevents the Far Easterners to 
engage in profitable trade with nearby countries like Japan. 
And this led to very serious resentment. In 2008, Moscow 
imposed heavy tariffs on the used cars brought from Japan which 
bring considerable benefits to the locals. There was a big 
demonstration in Vladivostok, the local police were not able or 
willing to deal with this demonstration and brought riot police 
from center, from Moscow, which beat up people relentlessly. 
There was extremely high level of anger and internet was full 
of remarks that we need to blow up the pipelines because of 
action in Moscow.
    In 2010, a group of youngsters in the Far East called 
partisans, guerrillas, engaged in systematic killing of law 
enforcement in Far East. The interesting element of this story 
was that majority of the locals supported them completely, that 
law enforcement should be killed. So if at the same time where 
there is hatred to Moscow increases or there is fragmentation 
of the Russian nation conscience increasing regionalism as more 
people of the Far East represent part of the Russian 
Confederation.
    At the same time they are increasingly rich and prosperous 
China became an attractive magnet for an increasing number of 
the Russians. There was quite a few tourists. People would go 
to China for trade. People who buy property over there or even 
plan a retirement which is absolutely extraordinary because you 
could hardly mention any Russia from Far East or from any part 
of Russia going not just to Central Asia, but even to the 
Russian Caucuses. Moreover, most of the Russian-speaking folk 
in Central Asia or Russian Confederation Caucuses tried to run 
away from those places. So some of them are planning to go 
retire in China indicates a considerable level of security and 
sort of ability to lead among the Chinese.
    Of course, everything is predicated on the trends of China 
who has more and more reach, but if it proceeds in this 
direction and China will be seen by the locals as sort of big 
Japan, sort of Eastern-West. Located in the West, but have the 
amenities and high living standard of the East, or the West, 
and in case if Moscow would not be able to control the area in 
case of big political crisis, the Far East could be attached to 
China. By the way, during the 2008 demonstration in Vladivostok 
some locals carried slogans, ``Give Vladivostok to Japan.'' So 
this is what could happen. Of course, any prediction is hard, 
but with the strength to proceed, it could be done.
    [The prepared statement of Mr. Shlapentokh follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Dr. Blank, and then we'll have some questions and dialogue.

  STATEMENT OF STEPHEN J. BLANK, PH.D., RESEARCH PROFESSOR OF 
        NATIONAL SECURITY AFFAIRS, U.S. ARMY WAR COLLEGE

    Mr. Blank. Thank you. It's a great honor to appear before 
this subcommittee again and I wish to point out that my remarks 
do not reflect the views of the Army, the Defense Department or 
the U.S. Government. Since 2008, Russia has reoriented its 
foreign policy to try and recover what was once the Soviet and 
Czarist status of Russia in Asia, namely that of a great 
independent power that had to be consulted about any major 
change in security and development in North East Asia.
    The precondition for success there is the reconstruction 
and development of the Russian Far East, RFE. Thanks to factors 
that are both natural, such as climate and cost of labor and 
absence--and demographic decline, as well as to systematic 
misrule by Russian Governments for years, this is an area that 
was quite literally depressed. And it's still not preforming at 
the same standard as European Russia. What that means is that 
unless the Russian Government comes up with a coherent 
development plan for the area, it will not be able to develop 
the region on its own. By 2009, it had already come to the 
conclusion that it could not do so on its own and it has been 
soliciting foreign partners. The main foreign partners that it 
solicits in the Russian Far East are, of course, China, Japan, 
South Korea, and the United States.
    As Congressman Rohrabacher pointed out, the United States 
has not been particularly interested in seeing Russia as a 
Pacific power. I wrote an article calling for this 2 years ago. 
I got no response. So we're aligned in that respect.
    Japanese business sees Russia in a very negative light, not 
just because of the unresolved Kurile Islands although efforts 
are now being made to solve that problem, but because Russia is 
a lousy place to invest. Your investment is not safe. You are 
subjected to confiscatory expropriation, taxation, corruption, 
criminality, unjustified sudden environmental penalties and the 
like. And the cost of doing business there are not conducive to 
investment, when you can invest elsewhere and get much more for 
your money. And that's not only in terms of oil and gas, but in 
terms of power stations, infrastructure, all the things that 
the Far East needs.
    Russia's dream of building a railroad connection the Trans-
Siberian Railroad to the Korean Peninsula, going through North 
Korea and then South Korea goes back to 1890, but it's still a 
dream. It's not a reality. And the idea of building a Trans-
Korean pipeline that would bring gas to South Korea from Russia 
and give North Korea tariff payments, as well as access to gas, 
is obviously not going anywhere given the present conditions 
there. So by default, the only major investor in the Russian 
Far East is China and the Chinese are taking advantage of this 
opportunity to obtain what you might call points of pressure or 
pressure points, points of leverage, key nodes in the energy 
infrastructure and other key industries in the Far East.
    The Chinese threats to the independence and sovereignty of 
Russia and the Far East are not Chinese migration. As a matter 
of fact, according to Russian scholars, Chinese migration has 
declined every year since the beginning of 2000. What is the 
real point or tip of the spear is Chinese investment and trade. 
And here, we see China utilizing the same kinds of tactics it 
has used elsewhere to obtain key economic and political 
leverage. The giant firm, Rosneft, has borrowed something like 
$27 billion from China in order to sell it oil and the Chinese 
are going to demand that that oil be sold at less than market 
price.
    China is now getting access into the gas industry and into 
Russia's Arctic energy developments as well and the Arctic 
energy is the great hope of the Russian energy sector for the 
future so China is already there. What we see, therefore, is a 
systematic Chinese economic penetration to investment and trade 
which will give it the political leverage over key sectors of 
the Russian economy in the years to come. And in the absence of 
any competitors this could create major security issues for the 
rest of Asia and the United States. Thank you.
    [The prepared statement of Mr. Blank follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank all of you for your very thoughtful 
testimony.
    We are also joined with our good friends, Steve Stockman 
from Texas, and the Colonel is leaving now, but has no 
questions right now.
    Mr. Cook. I wish I did. I have another commitment.
    Mr. Rohrabacher. All right, thank you, Colonel.
    Mr. Cook. Great testimony.
    Mr. Rohrabacher. Tom, do you have an opening statement or 
would you like to ask some questions?
    Mr. Marino. Thank you, Mr. Chairman. I appreciate the 
opportunity say a couple of things or ask some questions. I 
travel a little bit and when I was in Venezuela, I was in the 
American Building built by American Airlines and they had a lot 
of Chinese folks there. I went to Republic of Congo and in the 
hotel, they had a lot of Chinese folks there. Wherever I 
travel, I see that the outreach is phenomenal in breadth. And 
one of my African leader friends said that they are now the new 
colonial masters of Africa.
    I'm wondering if, any of you can comment on this, if you 
were in the position of making decisions for the United States 
and what would you recommend to counterbalance the ever-growing 
presence around the world to the garnering and gathering of key 
resources and minerals and oil, what would you recommend we do?
    Dr. Blank?
    Mr. Blank. That question, you have to go region by region, 
but in the Russian Far East and in Central Asia, first of all, 
we'd have to restore American growth at home in order to be 
able to compete economically in a more robust way.
    In the Far East, as I wrote 2 years ago, what is necessary, 
I believe, is to organize with Japan and South Korea a 
consortium that could actually come to the Russia Government 
and say that we are prepared to invest in selected projects in 
the Far East, energy, power transmission, infrastructure, 
etcetera in return for essentially the right to do so in a 
rational economic manner. As I put in the article, one of the 
preconditions is no more Magnitskys. Basically, that people can 
invest in Russia with the expectation that they get their money 
out safely, that profits can be made, that they're not 
subjected to extraordinary corruption and criminality. 
Unfortunately, that has not happened, one of the reasons why 
American investment generally, not just the Far East has 
slipped.
    In Central Asia, it's even more imperative, another region 
because over there, to be honest with you and I wrote a big 
paper about this last year, we talk a lot about the Silk Road, 
but there's nothing concrete. It's talk. It's not actuality. 
President Karimov, I'm told, laughs every time he hears it 
because he knows it's not a reality. So if the United States 
wants to compete with China, it needs to be able to compete 
economically by demonstrating a capacity and willingness to 
invest and sustain big investments in major projects in areas 
that are critical to our national interests. If we don't take 
that first step, everything becomes much more difficult.
    Mr. Rohrabacher. Dr. Lee?
    Mr. Lee. Yes, I would really second all of Steve's remarks. 
What I've been toying with is the idea of a U.S. partnership 
with our treaty allies in East Asia, Japan, and Korea, to come 
to the Russians and say look, we've got a lot of money we want 
to invest. We want to upgrade your railroads, your roads, your 
maritime facilities, your air traffic, all of this and 
meanwhile invest in the fabled resources of Siberia and the Far 
East, but you've got to make some changes at your end. And the 
changes have to be made that are going to improve the business 
environment.
    We're talking about things like protection, physical, 
intellectual property. We're talking about transparency and 
procurement. We don't want to get the feeling that the Chinese 
have some kind of an edge getting early information about 
projects that are going out to bid. I mean we want to be in a 
position to be able to take advantage of all of the commercial 
opportunities that are available.
    But I think at the same time, there should also be 
encouragement from the U.S. Government. It's not just a 
commercial issue here. We're not going into Russia here, the 
Far East, just for commercial reasons. There are big 
strategic--there's a big strategic stake here. We have to look 
upon the Russian Far East as kind of a gigantic buffer between 
China and North America. I think that we have to, in a sense, 
take a position there, increase our engagement and presence in 
the region, not just to make money, but also for our strategic 
well-being as a country.
    Mr. Tkacik. If I could just add, when I was in the Foreign 
Service in my earlier days, it was at the last two decades of 
the Soviet Union. The State Department had a Soviet Affairs 
Officer in just about every office of the State Department, 
whether it was Oceans Environment, whether it was Visas, 
whether it was any geographic area, and everybody was tasked to 
write and report on how the Soviets were engaging in whatever 
sector they were in. We don't have that with China these days.
    And if we're going to deal with the growing Chinese 
presence, you really have to know what you're dealing with. You 
have to have a Treasury Department that's focused on China. You 
have to have an Agriculture Department that has China people 
that are--whose task is to report on how China is competing 
with the United States. We don't--we really don't have that. 
And I think the first thing that should be done is some kind of 
perhaps mandatory requirement, a mandate on the State 
Department on all government agencies to report on China policy 
as it affects their missions. Until we have that, we don't even 
know what the size of the problem is unless, of course, a 
congressman shows up in Venezuela and he's overrun with 200 
Chinese and he doesn't know what they're doing. And he goes to 
Africa and he sees the same thing.
    If I could just be indulged 1 more minute, one of the 
places where I think we are facing the biggest challenge from 
China's sort of invisible hegemony is in the Pacific. The 
Pacific has been our sphere of influence for the last 60, 70 
years. But now I think we're watching our Pacific foreign 
policy be outsourced to Australia and New Zealand, both of whom 
have completely different interests from us. And we're seeing 
China basically take over each individual Pacific island state 
one by one in a very subtle, but very effective way. And 
there's no American presence to counter balance that.
    Mr. Marino. Mr. Chairman, I'd like to point out that this 
morning on NPR they had a former President Obama official 
stating that very thing, that he feels we're abdicating and 
this his policy maker, abdicating the Middle East and much of 
the area. And that's not coming from a conservative or a 
Republican official. It's coming from a former Obama official. 
And I'd like to, if I may, Chairman, if we can get it and 
submit it into the record, I think it's critical because while 
these hearings are vital, I think the overall problem is not a 
lot of people are aware of the dangers.
    When I was a young man, my father was very much involved in 
international relations. That's how I got involved in politics. 
And not it's not popular to talk about anything beyond our 
borders. As people remember 9/11 and other times, it's a very 
grave danger to ignore the storms that are formulating outside 
our borders. And I yield back the balance of my time. Thank 
you, Mr. Chairman.
    Mr. Rohrabacher. Mr. Shlapentokh, did you have something to 
add to that?
    Mr. Shlapentokh. My point is the U.S. needs to invest in 
the Far East, but in order to attract the people of the Far 
East to the United States is this money should have some 
implication for them. It should be good jobs. It should be 
housing. It should be something that goes in their pocket, not 
just to the pockets of the big American company and its Russian 
partners.
    In this case, they will go along the way of the money. The 
good way would be, of course, unite their efforts with the 
Japanese and South Koreans, but once again to be sure that 
money benefits go to Far East, not to Moscow.
    Mr. Rohrabacher. Thank you. Just to back up Mr. Tkacik's 
point about State Department not paying attention, we could not 
get the State Department to send anyone here today, for 
example, just to have a discussion, a dialogue with us about 
the subject. And to say that they're not interested is an 
understatement.
    Mr. Lowenthal, would you like to proceed?
    Mr. Lowenthal. First, I find the conversation very 
fascinating and obviously maybe it's an oversimplification what 
you all are saying, but obviously the increasing role of China 
in both Central Asia and throughout the world is cause of 
concern. The question I have are there any positive signs in 
this that we could work with and what is going to be the 
impact, not just between Russia and China, but on the emerging 
of the new Central Asian republics. Can you talk a little bit 
about the impacts of China on the--that used to be part of the 
Soviet Union that are now independent countries and where do 
they fit in? I believe that the Soviet Union wants to--how are 
they--what is to their advantage, the Soviet Union wanting them 
to come, to return Mr. Putin to kind of more under the 
relationship of the Soviet Union. What role is China playing 
actually in these Central Asian republics themselves and what 
role should we be playing with them?
    Mr. Blank. China is playing the role of investor and trade. 
It is now the number one investor and trade partner for Central 
Asia is also increasingly the place where they go to raise 
money on international capital markets.
    Now Central Asian governments, all of them each in their 
own way, pursue what they call a multivector policy. They try 
to balance off all of the great powers, U.S., China, Russia, 
and keep them each at arm's length so that nobody can exercise 
a disproportionate influence. The problem is that we have a 
symmetry of means of influence in them. China's means of 
influencing them is this enormous economic power and in 
reserve, although it has never been used and China doesn't show 
any interest in it, is the possibility of military power.
    Russia's economic power of Central Asia is steadily 
declining because of the fact that the Russians simply cannot 
compete with the Chinese capital, so they have tried to build a 
number of institutions, the Collective Security Treaty 
Organization, CSTO which is essentially an attempt to create a 
military organization to defend them against terrorism or 
invasion and to keep them in the Russian military orbit. Now 
they have set up a Customs Union, one purpose of which is to 
keep Chinese goods out. If you have a Customs Union, goods 
produced inside become much cheaper than those produced 
outside. You have a visible Chinese and Russian economic 
rivalry, but both of them see us as a potential threat because 
of our supposed desire to maintain a military presence in 
Central Asia after 2014 and of course, because they're all 
opposed, including Central Asian governments to democracy.
    What the U.S. needs to do here is first of all come to a 
decision whether or not Central Asia is a strategically 
important area for the United States. That has not been done. 
There is no discernible strategy. Some talk of maintaining 
military bases or troops in Afghanistan of certain advisory 
level after 2014, but we're getting out of there militarily. 
Economically, we're not investing anything like what would be 
required to sustain a viable American presence. And instead, 
we're relying on Uzbekistan which is essentially a government 
whose security and legitimacy depends on the health of a 74-
year-old dictator.
    So what I'm saying is there's no U.S. strategy for that 
area. That answers your question about Central Asia.
    Mr. Tkacik. I'd add that a dozen years ago, the Chinese 
finally pulled together a Central Asian-Russian alliance in the 
Shanghai Cooperation Organization. And I think the Chinese 
intent of this was to cement their influence in Central Asia as 
the Russian influence was receding.
    I have to say in the intervening 12 years, the Russians 
have been very adept at moving in and sort of making sure that 
the SCO, the Shanghai Cooperation Organization, is mostly about 
Russian-Chinese cooperation and that the Central Asians wind up 
being sort of junior partners in this.
    The problem, of course, is that the United States is far 
removed. We can't--we don't have a geographic border there. We 
have no way of getting our influence in. We have no way of 
getting either military or economic power into Central Asia 
without going through Russia or China or Pakistan or Iran. And 
it's very difficult, I think, for us to break that 
stranglehold. Central Asians, of course, as Steve mentioned, 
are desperate to try to play off both Russia and China and hope 
that the United States can come in and sort of tip the balance 
one way or the other.
    Mongolia, in particular, I mean is the only democracy in 
the region, Mongolians are terrified of their future. They only 
have two land borders. They have Russia on the top north and 
China on the bottom. They're desperate to get the United States 
and Canada and Europe and Japan investing in there so at least 
they have a stake, but if push comes to shove, it's going to be 
difficult for the United States to make its influence felt in 
any way other than that before the United Nations. But I mean 
if this, I thought I would--pass on, as China is usually the 
SCO to crystallize its security leadership in that region. 
Thank you.
    Mr. Rohrabacher. Thank you very much. The chair will ask a 
few questions and see if there's any final last minute 
statements by members of the panel. I guess what we're talking 
about is a major change in history in terms of who dominates 
certain areas and is there any question among the panel that 
let's say 70 years ago or 50 years ago that Russia, which was 
then the Soviet Union dominated Central Asia in that part of 
the world? Is there any question about that?
    And is there any question among the panelists that 50 years 
from now China will play that same dominant role or at least be 
that dominant--maybe not as Dr. Blank suggested, they won't 
have Chinese troops occupying the various or even Chinese 
immigrants dominating the scene, but the decision making and 
economic--how do you say--dominance, thus the political 
dominance will be on the part of China 50 years from now, so 
we'll see that shift away. Does anyone disagree with that?
    Go right ahead, Dr. Blank.
    Mr. Blank. I would be very hesitant about predicting first 
of all, that far out because 35 years ago people in our 
profession didn't think the Soviet Union was going to collapse, 
let alone peacefully.
    Mr. Rohrabacher. I did.
    Mr. Blank. Well, you are in a minority. And as Yogi Berra 
said ``Prediction is difficult, especially about the future.''
    The Central Asians don't want to be subservient to anyone. 
They want to be independent. That's why they strive for these 
balancing policies. Second, I think we've all seen in Iraq and 
Afghanistan just how difficult it is to subjugate people who 
don't want to be ruled by foreign governments and therefore the 
age of direct empire and maybe even of indirect empire is 
becoming much more unlikely. The prospect of this could become 
much more costly to anybody.
    The Chinese are certainly trying to gain economic and 
political leverage all across their periphery from Russia to 
Far East, Central Asia, Southeast Asia and into the South 
Pacific and so on. That doesn't mean their dominance is simply 
a foregone conclusion. It depends on what we do with the 
opportunities that we have and what other states do if the 
capabilities and resources and opportunities they have and the 
fact of the matter is that the aggressive Chinese policies of 
the last 4 or 5 years, have brought into being a pretty robust 
coalition that is becoming ever closer to the U.S., South 
Korea, Japan, Australia, key states in Southeast Asia like 
Vietnam and Indonesia and India who are making it clear that 
they are going to resist efforts by China to bring about a 
tributary or hegemonic Chinese system. I would not be nearly as 
confident that China is going to succeed in establish hegemony, 
although they may well try and that may lead to major crisis. 
But I think we have to leave the door open for countervailing 
actions by other actors.
    Mr. Rohrabacher. Thank you for that very optimistic answer. 
Let us just say the future is in our hands. There's nothing 
pre-ordained, but the trends seem to be going and the dominance 
that we were talking about again was not a dominance of that 
part of the world by occupation and I think perhaps one of the 
things that as most come out of this hearing from me is the 
idea that in the past when I had spoken to our Russian friends, 
I've talked about the potential of millions of Chinese 
migrating into territory which is their territory and that 
perhaps that will not be the methodology which creates Chinese 
power in those areas. That instead, people coming slowly, but 
carrying lots of money and buying all of the natural resources 
of an area and becoming the only employer in the area may well 
be just as powerful an influence as having large numbers of 
Chinese people moving there.
    And that strategy, as you're pointing out, Dr. Blank, is a 
fascinating strategy and it does have its weaknesses as we've 
seen in Burma. Burma, for the last 30 years has been, 40 years, 
has been at least 30 years has been really under the major 
influence of China, that's not the domination of China, but now 
the Burmese regime is actually trying to break lose and head 
more toward the West.
    Also let me note that the Russians, another factor that we 
put into this equation is that--and obviously, this is 
stereotyping, but the Russians seem to be people who have a 
creative genius about them. When it comes to science--I'm also 
on the Science Committee, Science, Space, and Technology 
Committee that we've always admired the fact that the Russians 
have been the power on this earth that has developed so much 
space technology and so much other technologies that were very 
innovative in pushing humankind, although they were not good at 
implementing those and commercializing them and put into 
practice. They were very good at the creative part.
    The Chinese, on the other hand, have been very good at 
taking the creations of the West and building them and mass 
producing them at a cheaper price. I would think the genius is 
a very valuable asset that the Russians have. And also, I might 
add, as the United States is now finding that the Chinese are 
stealing our intellectual property by the boat load or by 
whatever megaload it is. The Russians will find that as well.
    Just something about U.S. policy and Russia, are we--just 
very quickly with the panel. In the last, since the fall of the 
Soviet Union, have we pushed Russia into a good relationship 
with China? And should we have not been as tough on Russia in 
certain ways that we were? Just very quickly. We'll start over 
here with Dr. Lee.
    Mr. Lee. Yes, I certainly have the feeling that we have 
missed out on many opportunities to make more of our 
relationship with Russia. And a lot of this in a sense is water 
over the dam. We can't do anything about some of the more 
controversial acts, the Magnitsky bill, NATO enlargement, 
arguments over Iran, over Syria, over a number of different 
issues. I don't think that we can do that much about these 
problems. These are sort of fixed in our relationship, at least 
for the time being. But I do think that if we can develop a 
relationship in the Pacific between what I call Pacific Russia 
and Pacific America, this relationship, which would affect the 
Russian Far East could certainly spill over into other areas of 
the U.S.-Russia relationship and create possibilities for a 
broader, overall improvement.
    In the Pacific, we don't really have many outstanding 
differences between us and Russia. I think there's the question 
of the demarcation of the Bering Strait. My understanding is 
that that's being negotiated, but it's between Atlantic Russia 
and European Russia where we have a lot of the problems. Let's 
try to build the relationship on the Pacific side and see if it 
might not have a positive effect on the U.S.-Russia 
relationship overall.
    Mr. Rohrabacher. That was a very good answer to that 
question. Thank you. And I want to come back with a follow up 
after we go through the----
    Mr. Tkacik. Did we push Russia into China's hands? I don't 
think so. I think what happened is that we didn't--the United 
States was not sufficiently vigilant as Russia was 
transitioning from a Soviet dictatorship into a democracy and 
then into something else. And when--by the time Putin took over 
it seems to me that he was basing his legitimacy not on the 
consent of the governed, but more of how he would bring Russia 
back into the world as a global power again. And that if you 
were against Putin that you were against Russia. That's not to 
me us pushing Russia into China's hands. What we were doing was 
basically saying wait a minute, this is a dictatorship, this is 
not something that we can countenance. In the meantime, the 
Chinese said, oh, that's all right, we're dictators, too. We 
get along quite well.
    I think this sense in Moscow that the United States 
championing democracy and human rights is an attack on the 
legitimacy of the Putin government is probably at bottom the 
real reason why we have this conflict with them. So if we're 
going to resolve the issue, I think one has to start, I think, 
there. A democratic Russia, to me, is a far better player in 
the world stage than non.
    Mr. Rohrabacher. Doctor.
    Mr. Shlapentokh. Here, I think we need to see two types of 
approach. Approach with a Moscow central government. Here, of 
course, there is a strong imperial feeling and of course, did 
start with the expansion of the NATO and especially after the 
Serbian war. It was sort of watershed. The liberals became look 
at the United States with the eyes of so-called red to brown 
Eurasianists and similar other folk.
    The rise of dimension is Far East. In this case we will, 
the United States could, of course, played the same regionalism 
as China, but in this case the Far East would look at the 
United States much better than Chinese. The Russian preferences 
for masses would be in the peck order, Europe mostly, Germany, 
France, ideal. Second in the peck order would be United States. 
China, only if China became East and West, rich, property 
rights, more economically political, personal liberties. 
Russians would not mind to see tough Chinese dealings with 
bureaucracy. They would say yes, it's nice to shoot, we would 
like to see most of our bureaucracy be shot. But Russia would 
like to have some kind of property rights, some kind of 
personal liberties. They could travel abroad, no one 
interfering with this or that. So if United States will 
approach the Far East in the way that Far East would benefit 
personally with jobs, maybe scholarships or whatever, some 
material benefits, not words, hard cash, they would play the 
game both with China and with Japan and the United States.
    If the United States tried to play with Moscow, the central 
government, it is a another story.
    Mr. Rohrabacher. And finally, Dr. Blank.
    Mr. Blank. I believe that we've undoubtedly made mistakes 
in our foreign policy in the last 20, 25 years, but I would not 
want to eliminate the fact that the Russian turn to China 
begins in 1992 and I think is very much connected with the fact 
that the Russian Government already in 1992 was turning away 
from democracy. I'm one of those people who does not think that 
Yeltsin built a democracy. He certainly in many ways is more 
appealing a character than Putin is, but it was by no means 
democracy. It was what the Russians would call bezobrazie, sort 
of anarchy and lack of form. No limits. But the fact of the 
matter is that what drives Russian foreign policy back then and 
even now is the determination of the Russian elite to rule 
Russia in traditional autocratic authoritarian way and that 
Russia must be a great power, i.e., an imperial or at least 
neo-imperial presence and they can only get that by being 
friends with China.
    To the extent that the United States is Russia's partner, 
the Russians would feel their regime under pressure because we 
represent the greatest threat to the security of the Russian 
federation, namely democracy, not military power, but 
democratic governance and they have said so in many different 
ways over many times.
    Mr. Rohrabacher. Interesting point.
    Mr. Lowenthal. Yes, I'm struck with this balancing again, 
from the point of view of the Central Asian republics. One, how 
it is really to their advantage that the United States be part 
of this balancing act. I hear you saying in terms of their 
survival, you know, yet there's a lack of U.S. policy toward 
Central Asia in general. We spent a lot of time talking about 
Russia and China and I understand that, but I don't hear a lot 
how we can support or can we both the understanding of Central 
Asia, how we promote investment in Central Asia, in terms of 
the new Central Asia republics. Is that possible? Should we be 
doing that? Should that be part of a strategy? Should our 
strategy be less concern about where Russia or China is at this 
moment, but what role we can play in Central Asia? And how 
Americans do not even understand where Central Asia is or know 
anything about Central Asia and what can we do about that?
    Mr. Blank. As I said earlier, there needs to be a 
determination by the government in power at any given time in 
the United States, whether it's a Democratic or a Republican 
administration, whether or not we consider Central Asia to be 
strategically important. We are there essentially because we 
were attacked, but economic interests was actually growing 
before 2001.
    There is talk of a Silk Road, but there's no follow 
through. To give you an example, in 2011-12, the Senate Foreign 
Relations Committee published a major study calling for the 
building of the Silk Road and for the investment. This was done 
under then Senator Kerry's leadership. The State Department has 
done nothing with it. There is no real funding for it. They 
simply cobbled together existing programs. We know that 
bureaucratic game. There is no vision or strategy as to what we 
want to see in Central Asia after we leave Afghanistan and what 
instruments we have for influencing it and whether or not we 
even think it's important.
    Mr. Lowenthal. Right.
    Mr. Blank. Now if you can't answer those questions, all the 
questions you've posed become unanswerable because you're 
completely adrift. You don't have a lever in which to move the 
situation. If you feel Central Asia is important and you 
educate the public to understand why we think it's important 
and you develop the instruments of policy primarily economic 
ones to advance that interest, then you can actually get a 
hearing for what the United States wants to do. But without 
that essentially our Central Asia policy is--well, now it's 
essentially arranging for the departure of our troops from 
Afghanistan and what happens afterwards nobody knows.
    Mr. Rohrabacher. I'd like to thank the witnesses and did 
you have another follow up? I just have one closing statement 
which is my prerogative, thank you. We don't live in a world 
that really looks anywhere like the world when I was a kid. And 
my dad was a Marine and he flew spy missions on the China 
coast. We lived in Japan. And anyway, of course, it was Russia 
and the Soviet Union and China then and then, of course, later 
that whole relationship with China supposedly changed. Whatever 
the reality is today we know that we can--it is not out of our 
control. One thing, one point that's been made over and again 
in this hearing is that we're not paying attention to this and 
we are not trying to control the events and not trying to have 
the influence that the United States should have in this part 
of the world and if we don't, things are going to turn out 
differently than might turn out in a way that we don't like. 
And so it is essential that we become players in that part of 
the world. And from the various elements that have also been 
talked about today, we've heard that America's involvement with 
Russia on its Pacific side is vitally important to how things 
will shape up in the world.
    I would suggest then that perhaps one country that we 
haven't talked about much in this hearing can play and should 
play a major role because it is already a partner with the 
United States. I'm talking about Japan. If the influence that 
we have heard outlined today by China and how they are 
exercising their expansion of influence, what other country can 
really have a balance to that? And I think it's the Japanese. 
And the Japanese working with the United States can balance off 
exactly the threat that you have been talking about today which 
is expansion of Chinese influence based on their economic 
invasion rather than an invasion of troops or an invasion of 
migrants.
    The Japanese are very capable of this and we should be 
working with them on it. I see a world in which Russia, the 
United States, Japan and India will play a major role in 
shaping the world and the reason I'm not including China is 
that China is ruled by tyrants who are the world's worst human 
rights abuser. But perhaps the coalition that I just mentioned, 
if we could establish that and not drive Putin away by trying 
to suggest or hold him to some sort of standard, by the way, 
you mentioned Dr. Blank early on that China is much more 
authoritarian and totalitarian now than the Soviet Union was 
when it was the Soviet Union. Did you not say that?
    Mr. Tkacik. No, I said that.
    Mr. Shlapentokh. Much brutish.
    Mr. Rohrabacher. It was Tkacik who said that and I happen 
to agree with that point.
    Mr. Shlapentokh. Much brutish.
    Mr. Rohrabacher. And today we have China that there is no 
opposition party in China. There is an opposition party in 
Russia. There are several opposition parties in Russia. You go 
to Russia, there are things that you can buy on the streets 
that are printed in Russia that oppose the Putin regime. You 
don't see this anywhere in China. And you don't see--and in 
Russia, there are talk radio show hosts that actually criticize 
their government. You certainly don't see that in China. And 
China is a country and the expansion of the influence of that 
dictatorship, that clique that runs China I suggest is a threat 
to the well-being of certainly Central Asia and Russia, but 
also to the rest of us in the world who again, going back to 
the purpose of the hearing hold that the dominance of Central 
Asia will have an impact on the equilibrium of freedom and 
liberty and security and stability throughout the rest of the 
planet. And if you have a small clique in China who feel that 
they have a cartel by the bribes that they've offered 
throughout the world, that is just as great a threat as if they 
controlled these countries via an occupation army. So we must 
be vigilant and committed to building, to creating a future and 
I would suggest focusing and what I've got out of this hearing 
today is let's try to focus with Russia on their Pacific role 
and see where that leads us and see where that leads Japan and 
the United States and I think that would be a very positive 
thing.
    Now with that said, I thank our witnesses. Thank you for 
the discussion.
    Mr. Lowenthal, thank you very much. You're adding a lot to 
the depth of this hearing. Let me note that Congressman 
Lowenthal represents the ports in the United States in which 
perhaps a majority of all the trade from that part of the world 
coming into the United States comes right through his district. 
I know, it used to be my district. And he's doing a great job 
in joining us today and thank all of you for your testimony. 
This hearing is adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Tom Marino, a 
    Representative in Congress from the Commonwealth of Pennsylvania


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
